         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over Assess-
ing Natural Resource Damage at
Rocky Flats




OAS-M-06-02                            November 2005
REPORT ON MANAGEMENT CONTROLS OVER ASSESSING
NATURAL RESUORCE DAMAGE AT ROCKY FLATS


TABLE OF
CONTENTS


  Natural Resource Damage Assessment at Rocky Flats

  Details of Finding                                  1

  Recommendation and Comments                         3


  Appendices

  Objective, Scope, and Methodology                   5

  Prior Audit Reports                                 6

  Management Comments                                 7
NATURAL RESURCE DAMAGE ASSESSMENT AT ROCKY FLATS

Natural Resource    The Rocky Flats Project Office (Project Office) had not initiated,
Damage Assessment   and had no plans, at the time of our review, for conducting a
                    Natural Resource Damage Assessment (NRDA) at the Rocky Flats
                    Environmental Technology Site (Rocky Flats). It is Departmental
                    policy to conduct such an assessment to identify residual injuries
                    and the costs of any additional remedial actions. Furthermore,
                    Departmental guidance recognizes that the early initiation of an
                    NRDA can provide savings and efficiencies in performing the
                    assessment.

                    The Project Office is currently performing a Comprehensive Risk
                    Assessment (Assessment) as part of the required Remedial
                    Investigation/Feasibility Study (RI/FS) for Rocky Flats. While the
                    Assessment is necessary to quantify health risks to humans and the
                    surrounding environment at Rocky Flats after site closure, it does
                    not satisfy NRDA requirements. Specifically, the Assessment does
                    not identify residual injuries and the potential costs for cleaning up
                    or replacing the natural resources. For example, the Assessment
                    would not identify whether an injured wetland at Rocky Flats
                    could be remediated. The NRDA, however, could identify this
                    condition and provide an estimate of the costs to provide a
                    replacement wetland onsite.

                                          Savings and Efficiencies

                    The Department of Energy (Department's) NRDA guidance
                    recognizes that it is much more economical and efficient to
                    conduct an NRDA in conjunction with a RI/FS. In October 1993,
                    the Department issued NRDA guidance entitled Integrating
                    Natural Resource Damage Assessment and Environmental
                    Restoration Activities at DOE Facilities. According to this
                    guidance:

                        "Conducting a RI/FS is a costly exercise involving the
                        expenditure of millions of dollars for the collection of
                        data that are similar to the data needs of NRDA. By
                        slightly expanding the RI/FS data collection, the
                        information needed for the early phases of an NRDA
                        could be acquired at modest additional cost. This
                        would be much more efficient than spending millions
                        of dollars collecting data for an RI/FS and then
                        spending millions more later if it becomes necessary to
                        perform an NRDA and an independent data collection
                        effort is required."




Page 1                                                               Details of Finding
                    Further, the closure of Rocky Flats is causing both the Project
                    Office and site contractor Kaiser-Hill Company, LLC (Kaiser-Hill)
                    to lose key personnel with extensive knowledge of Rocky Flats and
                    its natural resources contamination. Since the beginning of the
                    audit, both the Project Office and Kaiser-Hill have experienced the
                    loss of key personnel. For example, the Project Office's Director
                    of Project Management, who was very knowledgeable in the area
                    of the Assessment and RI/FS that Kaiser-Hill is currently
                    performing, departed the organization in the summer of 2005.
                    Likewise, the Kaiser-Hill Project Manager for the Assessment,
                    who had detailed knowledge of the Assessment's methodology, is
                    no longer at Rocky Flats as of March 2005. Both the Project
                    Office and Kaiser-Hill face further personnel losses as Rocky Flats
                    nears closure.

Focus on Closure    According to Project Office managers, the NRDA process was not
                    initiated because they were focused on ensuring that Kaiser-Hill
                    closed Rocky Flats as soon as possible. Specifically, according to
                    Project Office managers, the NRDA was given a lower priority
                    than site closure, and while the Project Office recognized the
                    requirement to perform an NRDA, there was no plan to start the
                    NRDA at any specific point in time. The Project Office has
                    acknowledged that the Assessment was not designed to substitute
                    for an NRDA, and that the NRDA process must still be addressed.
                    Also, during the course of the audit, the Manager of the Project
                    Office indicated in discussions with us that he is receptive to
                    addressing NRDA concerns during the RI/FS process.

Unnecessary Costs   Ultimately, if the Department does not initiate the NRDA process
                    as soon as possible, it could face increased costs. Specifically, as
                    stated in the Department's guidance, not integrating the RI/FS data
                    collection effort with the early phases of an NRDA could cost the
                    Department millions of dollars. As previously stated, the timely
                    initiation and completion of the NRDA would provide savings and
                    efficiencies to the Department in the conduct of the NRDA and
                    would provide protection against potential claims for damage.

                    Furthermore, if the Department does not perform an NRDA, it may
                    lose an opportunity to avoid unnecessary damage claims.
                    Specifically, the Department's NRDA guidance recognizes that
                    unnecessary damage claims may be avoided by taking early action
                    to identify, assess, and protect against reductions in the quantity or
                    quality of natural resource services for the site. Further, the
                    Comprehensive Environmental Response, Compensation, and
                    Liability Act, Section 107, excludes liability for damages that were
                    a result of a discharge or release when the damages "were



Page 2                                                               Details of Finding
                 specifically identified as an irreversible and irretrievable
                 commitment of a natural resource in an environmental impact
                 statement or other comparable environmental analysis." As
                 previously mentioned, the NRDA can be coordinated with ongoing
                 environmental assessments such as the RI/FS currently being
                 conducted by Rocky Flats.


RECOMMENDATION   We recommend that the Manager, Rocky Flats Project Office, in
                 coordination with the State of Colorado, immediately initiate the
                 Natural Resource Damage Assessment in conjunction with the
                 Comprehensive Risk Assessment and the Remedial
                 Investigation/Feasibility Study.


MANAGEMENT       Project Office management concurred with the recommendation
REACTION         and agreed to initiate the NRDA process at Rocky Flats.
                 Management stated that it had worked closely for many years with
                 the State of Colorado, other Federal agencies, and stakeholders to
                 address site cleanup levels and conduct effective remediation
                 actions. However, management acknowledged it had not formally
                 initiated an NRDA and that doing so is a necessary next step.
                 Management stated that subsequent to the Office of Inspector
                 General audit, it had begun this process by engaging an NRDA
                 consultant to provide an initial evaluation of potential impacts to
                 natural resource services not specifically addressed by the
                 Assessment. Further, management has had preliminary
                 discussions with the State of Colorado and the Department of
                 Interior regarding methods for evaluating potential resource
                 damages. According to a Project Office official, the results of the
                 NRDA consultant's work will be shared with the State of Colorado
                 and the Department of Interior, in order for each party to have
                 input in addressing any potential injuries to natural resources at
                 Rocky Flats.

                 Management also made a comment which appeared to contradict
                 information presented in the report. Specifically, management
                 noted that the Department's 1993 NRDA guidance stated that, "To
                 most accurately estimate natural resources damages an NRDA
                 should really be conducted after completion of remedial action,
                 because it is only at this point that residual injuries, i.e., those not
                 addressed by the remedial action, can be accurately measured."
                 Management then stated that remedial work will be completed
                 during the first quarter of Fiscal Year 2006.




Page 3                                          Recommendation and Comments
           Management pointed out that its cleanup approach and ongoing
           consideration of potential natural resource injuries have been
           comprehensive, thus reducing the likelihood that additional scope
           or costs would be incurred to address natural resource damage
           issues.

AUDITOR    The Project Office's comments are responsive to our
COMMENTS   recommendation and its actions, when fully implemented, should
           provide the Department with assurance that potential injuries to
           natural resources at Rocky Flats have been satisfactorily addressed.

           However, some clarification is necessary to address the
           discrepancy between the NRDA information presented in the
           report and management's comment. It should be noted that
           subsequent to the quote presented by management above, the
           NRDA guidance goes on to state: "It would, however, be unwise
           for RI/FS project managers to ignore NRDA concerns until then
           [completion of remedial action]. Natural resource damage
           considerations really should play a role in the selection of remedial
           actions in the RI/FS process for maximum public benefit because
           some remedial action alternatives are likely to result in lower
           natural resource damages than others." Ultimately, the guidance
           concludes: "Overall, however, the potential advantages of
           integrating the RI/FS and NRDA processes substantially outweigh
           the potential disadvantages." Thus, in our opinion, it is the
           Department's intent that the NRDA be integrated with the RI/FS
           early in the cleanup process.

           Finally, we note that despite the comprehensiveness of
           management's cleanup approach to date, only the completion of the
           NRDA process will determine whether additional costs will be
           ultimately incurred.




Page 4                                                             Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department has initiated a Natural Resource Damage Assessment
              (NRDA) process for Rocky Flats.


SCOPE         The audit was performed from March through August 2005 at the
              Rocky Flats Project Office. The audit covered the current NRDA
              requirements for Rocky Flats.


METHODOLOGY   To accomplish the audit objective, we:
                  • Reviewed Federal laws and regulations, Executive Order
                      12580 Superfund Implementation, the Rocky Flats
                      Cleanup Agreement, and Department and Project Office
                      guidance as they governed the NRDA process;

                  • Interviewed Office of the Assistant Secretary for
                      Environment, Safety and Health; Project Office; Kaiser-
                      Hill Company, LLC; and State of Colorado managers;
                      and,

                  • Reviewed and evaluated documents related to the NRDA
                      at Rocky Flats.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We assessed the Department's compliance with the Government
              Performance and Results Act 1993. The Department did not
              establish specific performance measures related to NRDA.
              Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at
              the time of our audit. We did not rely on computer-processed data
              to accomplish our audit objective. Therefore, it was not necessary
              to assess its reliability.
              An exit conference was waived by the Rocky Flats Project Office
              on November 10, 2005.




Page 5                                   Objective, Scope, and Methodology
Appendix 2


                                  PRIOR AUDIT REPORTS



Government Accountability Office

   •   NUCLEAR CLEANUP, Progress Made at Rocky Flats, but Closure by 2006 Is Unlikely,
       and Costs May Increase (GAO-01-284, February 2001). The Government
       Accountability Office (GAO) reported that the total cost at the Rocky Flats
       Environmental Technology Site (Rocky Flats) will rise if any claims for monetary
       damages are brought against the Department of Energy (Department) to compensate for
       injuries to natural resources, such as wildlife, fish, and lakes, on or near Rocky Flats.

   •   DEPARTMENT OF ENERGY: Accelerated Closure of Rocky Flats: Status and
       Obstacles (GAO/RCED-99-100, April 1999). The report stated that the Department
       could be exposed to litigation seeking compensation for damages resulting from the
       effect of the site's activities on natural resources. Department officials indicated that the
       potential liabilities could not be estimated, but that they could be substantial. These
       officials also said that over the next 2 years, they hoped to work with the site's regulators
       and stakeholders to define the extent of the Department's liability in the event of
       unanticipated future problems.

   •   Natural Resource Restoration Issues at DOE (GAO/RCED-97-28R, December 1996).
       GAO reported that Department officials at Rocky Flats stated that the site had undertaken
       several initiatives to reduce or avoid the potential adverse impacts of cleanup activities on
       natural resources. The actions included such things as avoiding an impact by not taking a
       certain action; minimizing an impact by limiting the magnitude of an action; rectifying an
       impact by repairing, rehabilitating, or restoring the affected resource; and compensating
       for the impact by replacing or providing substitute resources. These activities at Rocky
       Flats were focused on the buffer zone, which contained some rare and sensitive natural
       resources.




Page 6                                                                        Prior Audit Reports
Appendix 3




Page 7       Management Comments
Appendix 3 (continued)




Page 8                   Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
                                                                    IG Report No. OAS-M-06-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
